Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    TEMPORARY MEDICARE
   APPROVED DRUG DISCOUNT 

     CARD: BENEFICIARIES’ 

    AWARENESS AND USE OF 

   INFORMATION RESOURCES





                    Daniel R. Levinson

                    Inspector General 


                      October 2005

                     OEI-05-04-00200

                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy
and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
  Δ         E X E C U T I V E                                                  S U M M A R Y                                               



                                       OBJECTIVE
                                       To determine the extent of beneficiaries’ awareness and use of
                                       information resources for the Medicare-approved Drug Discount Card
                                       (drug card) program for the purpose of maximizing the effectiveness of
                                       outreach and education efforts for the new Medicare drug benefit.


                                       BACKGROUND
                                       The Medicare Prescription Drug, Improvement, and Modernization Act
                                       of 2003 (MMA) created the temporary drug card program to provide
                                       immediate access to discounted drugs. Under the drug card program,
                                       some low-income beneficiaries also qualify for a $600 annual credit
                                       toward drug purchases. The MMA also added a new outpatient
                                       prescription drug benefit to Medicare under Part D that becomes
                                       effective in January 2006.

                                       The Centers for Medicare & Medicaid Services (CMS) is required to
                                       broadly disseminate information to beneficiaries about the drug card
                                       program. CMS offers information through a toll free number (1-800
                                       MEDICARE) and a Web site, both of which allow beneficiaries to
                                       compare drug prices and program features across available drug cards.
                                       CMS also developed television and radio ads and mailed information
                                       about the drug card program to all eligible beneficiaries. In addition,
                                       CMS has awarded grants to State Health Insurance Assistance
                                       Programs (SHIP) to provide beneficiary education and counseling.
                                       Private companies that sponsor drug cards (card sponsors) are also
                                       required to make available specific information to promote informed
                                       choice.

                                       To measure beneficiary awareness and use of information, we conducted
                                       a national survey of a stratified random sample of beneficiaries. We
                                       stratified based on drug card enrollment status as of August 1, 2004,
                                       and our sample included 550 enrolled beneficiaries (population of about
                                       1.8 million) and 620 nonenrolled beneficiaries (population of about
                                       33.4 million).

                                       This inspection is intended to assist CMS in maximizing the
                                       effectiveness of beneficiary information and outreach efforts for the new
                                       drug benefit. As such, we are reporting on beneficiaries’ awareness and
                                       use of drug card resources so that CMS can take these behaviors into
                                       account for current and future efforts.


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   i
    E X E C U T I V E                                        S U           M M A R Y 




                                       AWARENESS AND USE OF RESOURCES
                                       Almost three-quarters of beneficiaries are aware of at least one
                                       source they could contact for information about the drug card
                                       program. Seventy-two percent of all beneficiaries are aware of at least
                                       one of the following five sources that they could contact for drug card
                                       program information: 1-800-MEDICARE, Medicare Web site, drug card
                                       sponsors, pharmacies, and SHIPs. Awareness seems highest for 1-800
                                       MEDICARE and lowest for SHIPs. Enrolled beneficiaries are more
                                       likely to be aware of information sources than nonenrolled beneficiaries.
                                       Beneficiaries most commonly used passive sources such as news
                                       media and mail for drug card information. Only one-fifth of
                                       beneficiaries contacted a source requiring self-initiated action.
                                       Overall, 65 percent of beneficiaries used the news media and 53 percent
                                       used information in their mail to make enrollment decisions. We
                                       categorized news media and mail as “passively acquired” sources
                                       because obtaining information from these sources does not require the
                                       self-initiated action by the beneficiary needed to contact any of the
                                       “actively acquired” sources. Actively acquired sources are 1-800
                                       MEDICARE, the Medicare Web site, card sponsors, pharmacies, and
                                       SHIPs. Twenty-one percent of all beneficiaries have contacted one or
                                       more of these sources for information on the drug card program.

                                       Enrolled beneficiaries had a much higher rate of use (77 percent) of any
                                       actively acquired sources than nonenrolled beneficiaries (17 percent).
                                       Among nonenrolled beneficiaries, those with drug coverage are less
                                       likely to contact any actively acquired sources for information than
                                       those without drug coverage. Those who used news media or mail are
                                       more likely to also use an actively acquired source.
                                       Just over one-third of enrolled beneficiaries needed help with the
                                       enrollment process. Thirty-seven percent of enrolled beneficiaries
                                       needed help with the process of signing up after they decided to enroll.
                                       These beneficiaries most frequently needed help completing the
                                       enrollment form or applying for the $600 credit. Among the
                                       beneficiaries who needed help signing up, the most common sources
                                       that provided enrollment help were pharmacies and 1-800-MEDICARE.


                                       IMPLICATIONS FOR THE NEW DRUG BENEFIT
                                       To maximize the effectiveness of beneficiary education, we suggest that
                                       CMS consider the following implications for the new drug benefit.


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   ii
    E X E C U T I V E                                        S U           M M A R Y


                                       For the new drug benefit, CMS should consider expanding the
                                       efforts it used to inform beneficiaries about the availability of
                                       information resources for the drug card program. Overall, CMS’s
                                       efforts to make beneficiaries aware of information resources, including
                                       1-800-MEDICARE, seem effective in reaching most beneficiaries.
                                       However, the information did not reach all beneficiaries. Expanding
                                       these efforts and extending them to additional sources could help to
                                       increase awareness of specific information resources.
                                       CMS should recognize and consider capitalizing on beneficiaries’
                                       propensity to use passively acquired information. More beneficiaries
                                       obtained information through news media and mail than any other
                                       sources, so CMS could take advantage of these mechanisms to reach the
                                       greatest number of beneficiaries. CMS could use these sources to
                                       promote increased use of other sources of information on the new drug
                                       benefit, including 1-800-MEDICARE, drug plan sponsors, SHIPs, and
                                       community-based organizations.
                                       CMS should consider collaborating with the sources that
                                       beneficiaries contact most frequently, including pharmacies and
                                       sponsors. CMS should consider working to assist pharmacies, the
                                       most commonly contacted information source, in responding to
                                       beneficiary inquires. CMS could provide fact sheets and materials to
                                       pharmacists to give to beneficiaries and referrals to direct beneficiaries
                                       to other sources of assistance, such as 1-800-MEDICARE or SHIPs. In
                                       its oversight capacity, CMS should work with drug plan sponsors to
                                       ensure that they provide beneficiaries with useful information about the
                                       new drug benefit. This is particularly important because drug card
                                       sponsors were the second most commonly contacted source for the drug
                                       card program.
                                       Anticipating the need for enrollment assistance, CMS could
                                       promote available sources of assistance and continue to invest in
                                       the capacity of those sources to meet beneficiary needs. Over one-
                                       third of enrolled beneficiaries needed help enrolling in a drug card, and
                                       drug plan enrollment will likely be more complicated. CMS should
                                       anticipate and continue to prepare to meet beneficiary need for
                                       enrollment assistance. We support CMS’s plan to develop an online
                                       enrollment system and encourage continued efforts to facilitate drug
                                       plan enrollment.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   iii
    E X E C U T I V E                                        S U           M M A R Y 




                                       AGENCY COMMENTS
                                       CMS stated that it views the drug card as an important opportunity for
                                       “lessons learned” for outreach and education strategies for the drug
                                       benefit and agreed with each of the implications for the drug benefit
                                       that we suggested. CMS noted that it has substantially more time to
                                       plan for the drug benefit, as compared to the drug card program, and
                                       thus has been able to develop stronger collaborations and partnerships
                                       to achieve these goals. CMS detailed several planned and ongoing
                                       outreach and education activities related to our suggestions. The
                                       agency described a targeted education effort that incorporates media
                                       advertising, simple fact sheets, detailed publications, direct mail, and
                                       community-based grassroots outreach with numerous partners
                                       (including pharmacies). CMS also highlighted the personalized
                                       information available through the Drug Plan Compare web tool and
                                       1-800-MEDICARE. CMS thanked OIG for providing constructive and
                                       timely information. The complete text of CMS’s comments is included
                                       in Appendix F.


                                       OFFICE OF INSPECTOR GENERAL RESPONSE
                                       OIG appreciates CMS’s response to this report and the detailed
                                       descriptions of its ongoing and planned beneficiary outreach and
                                       education efforts for the drug benefit. This inspection is intended to
                                       assist CMS in maximizing the effectiveness of beneficiary information
                                       and outreach efforts for the drug benefit. We are pleased that CMS
                                       found this information to be constructive and agrees with our
                                       suggestions. We recognize that CMS is devoting substantial effort
                                       toward beneficiary outreach and education.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   iv
Δ   T A B L E            O F            C O N T E N T S                                   




         EXECUTIVE SUMMARY ........................................                                                                 i



         INTRODUCTION ................................................ 1




         AWARENESS AND USE OF INFORMATION ................. 7

                     Almost three-quarters of beneficiaries aware of at least one 

                     information source . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                     Most beneficiaries use news media and mail; one-fifth use other 

                     sources.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                     About one-third of beneficiaries need help signing up. . . . . . . . . . 13 




         IMPLICATIONS:                        N E W D R U G B E N E F I T . . . . . . . . . . . . . . . . . . . . 15 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                     A: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                     B: Confidence Intervals for Key Statistics . . . . . . . . . . . . . . . . . . 26 


                     C: Logistic Regression Models . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 


                     D: Enrollment Decisions and Explanations . . . . . . . . . . . . . . . . . 33 


                     E: Beneficiary Knowledge of Drug Card Program . . . . . . . . . . . . 35 


                     F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

  Δ         I N T R O D U C T I O N                                                                  



                                       OBJECTIVE
                                       To determine the extent of beneficiaries’ awareness and use of
                                       information resources for the Medicare-approved Drug Discount Card
                                       (drug card) program to maximize the effectiveness of outreach and
                                       education efforts for the new Medicare drug benefit.


                                       BACKGROUND
                                       Medicare Coverage of Prescription Drugs
                                       In 2004, Medicare provided health insurance for approximately
                                       41.8 million Americans; this includes more than 35 million seniors and
                                       6.5 million nonelderly people with disabilities.1 Medicare Part B covers
                                       a limited range of drugs, primarily those administered in a physician’s
                                       office. In 2003, Medicare spent approximately $4 billion on prescription
                                       drugs covered under Part B.2
                                       The Medicare Prescription Drug, Improvement, and Modernization Act
                                       of 2003 (MMA), Public Law 108-173, added an outpatient prescription
                                       drug benefit to Medicare under Part D. Effective January 2006, all
                                       Medicare beneficiaries will be able to enroll in private plans, which will
                                       cover a percentage of their drug costs. Assistance with premiums and
                                       cost sharing will also be provided to an estimated 11 million low-income
                                       beneficiaries.3 Estimates of the Part D drug benefit cost range from
                                       $47 billion to $58.9 billion for fiscal year (FY) 2006.4
                                       Medicare-Approved Drug Discount Card Program
                                       While the full Medicare prescription drug benefit will not be
                                       implemented until January 2006, the MMA also created the drug card
                                       program to provide immediate access to discounted prescription drugs.
                                       All Medicare beneficiaries who are enrolled in Medicare Part A and/or
                                       Part B and do not have outpatient prescription drug coverage under
                                       Medicaid are eligible. Beneficiaries were able to enroll at any time from
                                       May 3, 2004, through December 31, 2005. Discounts became available
                                       in June 2004 and end January 2006 with the advent of the full
                                       prescription drug benefit. The Centers for Medicare & Medicaid
                                       Services (CMS) reported in December 2004 that 5.8 million beneficiaries
                                       had enrolled in the drug card program.5
                                       In early 2004, CMS approved private companies (sponsors) including
                                       health insurance companies, drugstore groups, and managed care firms,
                                       to provide a total of 73 Medicare-approved drug discount cards.


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   1
    I N T R O D 
U C T                                  I O N


                                       Sponsors offer approximately 40 different national drug cards and

                                       33 regional drug cards. 


                                       Medicare beneficiaries are only allowed to enroll in one drug card per
                                       year. Once beneficiaries are enrolled, they are not allowed to switch to
                                       a different drug card until the next open-enrollment period.

                                       Beneficiaries are expected to consider several program features when
                                       deciding which drug card is best for them. These features relate to each
                                       card’s specific discounts, formulary, enrollment fee, and network of
                                       pharmacies that will accept the card. Drug card discounts vary between
                                       cards and may vary within each drug card program. Drug card
                                       sponsors can offer discounts on all drugs allowed by CMS or may cover
                                       only a select list of drugs (i.e., a formulary). A drug card formulary may
                                       vary throughout the life of the program. Drug card sponsors may
                                       charge an annual enrollment fee of up to $30 or may offer a card
                                       without an enrollment fee. Finally, discounts are redeemable only at
                                       network pharmacies, which also vary by drug card.
                                       $600 Transitional Assistance Credit
                                       In addition to the discounts available through the drug cards, a
                                       $600 transitional assistance credit ($600 credit) is available for
                                       beneficiaries with incomes at or below 135 percent of the Federal
                                       Poverty Level and without other drug coverage.6 Eligible beneficiaries
                                       may use the annual $600 credit toward prescription drug purchases in
                                       both 2004 and 2005. CMS also will pay any enrollment fees for these
                                       beneficiaries. According to CMS, 1.5 million drug card enrollees were
                                       receiving the $600 credit as of December 2004.7
                                       Beneficiary Education
                                       CMS. The MMA requires CMS to broadly disseminate information to
                                       individuals eligible for the drug card program. Required information
                                       includes enrollment procedures, a comparison of cards’ annual
                                       enrollment fees, and information on the variability of discounts and
                                       drug prices under an approved drug card. In accordance with this
                                       mandate, CMS has emphasized the importance of Medicare
                                       beneficiaries’ access to “all the information available to make decisions
                                       about choosing the card that best fits their needs.”8
                                       CMS has initiated several efforts to reach out to beneficiaries and to
                                       ensure their access to information on the drug card program. CMS
                                       mailed program information to all eligible beneficiaries and has spent
                                       $60 million for an advertising campaign. In addition, CMS established
                                       a Web site (www.Medicare.gov) and a toll free number

OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   2
    I N T R O D 
U C T                                  I O N


                                       (1-800-MEDICARE) where beneficiaries may compare enrollment fees,
                                       discounted drug prices, and formularies offered by the drug card
                                       programs available in their geographic areas. These sources also
                                       provide information on eligibility and how to apply for the $600 credit.

                                       Representatives at 1-800-MEDICARE also refer callers to additional
                                       resources, including State Health Insurance Assistance Programs
                                       (SHIP), as needed. In April 2004, CMS awarded $21.1 million in grants
                                       to States in support of local SHIPs to help Medicare beneficiaries
                                       understand and take advantage of new benefits and programs in
                                       Medicare.9 SHIPs provide one-on-one counseling to beneficiaries.
                                       CMS and other stakeholders targeted additional education efforts
                                       toward low-income beneficiaries likely to be eligible for the
                                       $600 transitional credit. For example, CMS collaborated with the Social
                                       Security Administration (SSA). SSA mailed letters to all Social Security
                                       recipients who were likely to be eligible for the $600 credit informing
                                       them of this benefit. CMS also developed TV and radio advertisements
                                       (ads) that focus on the $600 credit and target low-income beneficiaries.
                                       Approved Card Sponsors. The MMA requires each card sponsor to make
                                       available information on enrollment fees, negotiated price information
                                       for covered drugs, and other information deemed necessary by the
                                       Secretary of the Department of Health and Human Services to promote
                                       informed choice. 10 Each card sponsor must have a mechanism,
                                       including a toll free number, for providing specific information to
                                       individuals enrolled in the program. The Secretary is required to
                                       provide “appropriate oversight to ensure compliance of card program
                                       sponsors with the requirements.”11
                                       CMS describes the required sponsor information in its Information and
                                       Outreach Materials Guidelines for sponsors’ materials. CMS
                                       regulations incorporate these Information and Outreach Materials
                                       Guidelines by reference.12 Examples of required information include:
                                               information on how to become enrolled in a program,
                                               eligibility qualifications for the $600 credit,
                                               toll-free telephone numbers,
                                               enrollment fees,
                                               a list of contracted pharmacies and prescription drugs offered for a
                                               negotiated price, and
                                               a notice that drugs and prices may change and a description of how
                                               enrollees can obtain information regarding those changes.13


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   3
    I N T R O D 
U C T                                  I O N


                                       Drug card sponsors also are required to obtain CMS approval of all
                                       information and outreach materials before distributing them to
                                       beneficiaries. According to CMS, the goal of this review of beneficiary
                                       materials is to ensure that information and outreach materials promote
                                       informed choice.14 Card sponsors began sending CMS-approved
                                       information and materials to beneficiaries in May 2004.
                                       Enrollment
                                       To participate in the drug card program, Medicare beneficiaries
                                       (excluding those automatically enrolled through a Medicare Advantage
                                       program or their State’s Pharmancy Assistance Program) must directly
                                       enroll with the drug card sponsor of their choice. CMS issued a
                                       standard enrollment form accepted by all approved drug card sponsors.
                                       CMS intends the standard form to make it easier for community-based
                                       organizations, health professionals, and consumer groups to assist
                                       beneficiaries with the enrollment process.15 To enroll, beneficiaries
                                       must complete either CMS’s or their selected drug card sponsor’s
                                       enrollment form and send it to their selected card sponsor.
                                       Implications for the New Medicare Drug Benefit Under Part D
                                       This inspection is intended to assist CMS in maximizing the
                                       effectiveness of beneficiary information and outreach efforts for the new
                                       drug benefit. As such, we are reporting on beneficiaries’ awareness and
                                       use of drug card resources so that CMS can take these behaviors into
                                       account for ongoing and future efforts. CMS plans to spend
                                       $300 million in 2005 to educate Medicare beneficiaries about the new
                                       drug benefit, including initiatives with SSA, States, and national and
                                       community-based organizations.16 While the drug card program will
                                       end with the start of this benefit in 2006, understanding beneficiaries’
                                       awareness and use of information resources for the drug card program
                                       is instructive for the new drug benefit. It is reasonable to expect that
                                       beneficiaries will become aware of and obtain information about the
                                       drug benefit through channels similar to those they used for the drug
                                       card program.
                                       Concurrent Office of Inspector General Inspections
                                       The Office of Inspector General (OIG) conducted two additional studies
                                       related to the drug card program. One study, Assessment of Sponsors’
                                       Materials Under the Medicare-Approved Drug Discount Card Program
                                       (OEI-05-04-00190), assessed the extent to which drug card sponsors’
                                       materials promote informed choice for beneficiaries. The second study,
                                       Analysis of Drug Card Sponsors’ Drug Prices (OEI-05-05-00020),


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   4
    I N T R O D                    U C T                I O N


                                       monitored the prescription drug prices posted on the Medicare Web site
                                       and determined the extent to which sponsors are changing these prices.


                                       METHODOLOGY
                                       We conducted a national survey of a stratified random sample of
                                       Medicare beneficiaries eligible for the drug card program. The following
                                       provides a general overview of our methodology. See Appendix A for
                                       more details on our methodology.
                                       Sampling
                                       Our population is Medicare beneficiaries who are eligible to participate
                                       in the drug card program, excluding beneficiaries who were
                                       automatically enrolled by their Medicare Advantage plan. All Medicare
                                       beneficiaries except for those who receive drug benefits under Medicaid
                                       are eligible to enroll in the drug card program.

                                       From this population, we selected a stratified random sample of
                                       beneficiaries from four mutually exclusive strata based on two criteria:
                                       enrollment status as of August 1, 2004, and eligibility for the
                                       $600 credit. For beneficiaries enrolled in the drug card program, we
                                       stratified based on whether the beneficiary was also enrolled in the
                                       $600 credit. For nonenrolled beneficiaries, we used low-income ZIP
                                       codes as a proxy to ensure that our sample would include some
                                       nonenrolled beneficiaries eligible for the $600 credit. Table 1 describes
                                       our four strata.


                                       TABLE 1: Population and Sample Size, by Strata
                                                                                                                                                           Population                Sample
                                      Strata Description                                                                                                         Size                  Size

                                      1. Enrolled beneficiaries receiving $600 credit                                                                           817,969                    300

                                      2. Enrolled beneficiaries not receiving $600 credit                                                                       928,928                    250

                                      3. Nonenrolled beneficiaries residing in low-income ZIP code                                                                38,524                   400

                                      4. Nonenrolled beneficiaries not residing in low-income ZIP code                                                    33,346,431                       220

                                                                                                                                      Totals               35,131,852                   1,170


                                       Survey and Response Rates
                                       We developed two survey instruments, one for enrolled beneficiaries and
                                       one for nonenrolled beneficiaries. Most of our key survey questions on
                                       awareness and use of resources were identical across the two surveys.


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   5
    I N T R O D                    U C T                I O N


                                       This allows us to combine information across all respondents and
                                       project to the total population.

                                       We conducted these surveys primarily by mail. In addition, we hired a
                                       contractor to call beneficiaries who did not respond to the mail survey.
                                       Surveys were completed between September and December 2004.

                                       Our overall response rate was 65 percent. Enrolled beneficiaries
                                       responded at a higher rate than nonenrolled beneficiaries. By strata,
                                       our response rates ranged from 50 percent (nonenrolled beneficiaries
                                       residing in a low-income ZIP code) to 77 percent (enrolled beneficiaries
                                       not receiving the $600 credit). We conducted a nonresponse analysis
                                       that found no evidence of nonresponse bias. Details of this analysis are
                                       included in the detailed methodology in Appendix A.
                                       Analysis
                                       We used several methods to analyze the survey data and focused on the
                                       key questions related to our objective, i.e., questions about awareness
                                       and use of information resources, and the enrollment process. Appendix
                                       A provides details of our analysis and Appendix B provides confidence
                                       intervals for key statistics at the 95 percent confidence level. We
                                       weighted the data based on probability of selection to project to the
                                       population. It is important to note that beneficiaries in strata four have
                                       a substantially greater weight than the other three strata because this
                                       strata (not enrolled, not low-income ZIP code) represents 95 percent of
                                       our total sampling population.

                                       In addition to our key questions on awareness, use, and enrollment, we
                                       analyzed information pertaining to nonenrolled beneficiaries’
                                       enrollment decisions and beneficiaries’ knowledge of the drug card
                                       program. This information may be found in Appendixes D and E.

                                       This inspection was conducted in accordance with the “Quality
                                       Standards for Inspections” issued by the President’s Council on
                                       Integrity and Efficiency.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   6
  Δ         A W A R E N E S S                                                     A N D                       U S E                        O F
             I N F O R M A T I O N

Almost three-quarters of beneficiaries are aware                             Seventy-two percent of all
   of at least one source they could contact for                             beneficiaries are aware of at least
                                                                             one of five information resources
       information about the drug card program
                                                                             that they could contact to obtain
                                       information about the drug card program. These five sources include:
                                       1-800-MEDICARE, the Medicare Web site, drug card sponsors,
                                       pharmacies, and SHIPs.17 Ninety-one percent of enrolled beneficiaries
                                       and 71 percent of nonenrolled beneficiaries are aware that they can get
                                       information about the drug card program from at least one of these
                                       sources. Of these five sources, enrolled beneficiaries are aware of 2.4
                                       sources on average and nonenrolled beneficiaries are aware of an
                                       average of 1.9 sources.
                                       Among both enrolled and nonenrolled beneficiaries, most beneficiaries are
                                       aware of 1-800-MEDICARE and the fewest are aware of SHIPs
                                       We ordered the sources by awareness, and we found a similarity in this
                                       ordering for enrolled and nonenrolled beneficiaries. For both groups,
                                       most beneficiaries are aware of 1-800-MEDICARE and the fewest are
                                       aware of SHIPs.18 As shown in Table 2, 75 percent of enrolled and
                                       56 percent of nonenrolled beneficiaries are aware that they could
                                       contact 1-800-MEDICARE for information about the drug card program.
                                       Twenty-two percent of enrolled and 21 percent of nonenrolled
                                       beneficiaries are aware of SHIPs as a source of information about the
                                       drug card program.


                                          TABLE 2: Beneficiary Awareness of Available Information Sources


                                                                                                         Enrolled Beneficiaries                        Nonenrolled Beneficiaries
                                         Information Resource                                                           Aware                                            Aware

                                         1-800-Medicare*                                                                              75%                                                 56%

                                         Card sponsors*                                                                               65%                                                 38%

                                         Pharmacy*                                                                                    60%                                                 41%

                                         Medicare.gov*                                                                                58%                                                 47%

                                         SHIP                                                                                         22%                                                 21%

                                      * Statistically significant difference between enrolled and nonenrolled beneficiaries using the chi square test,
                                      p<0.05.

                                      Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   7
A W A R E N E S S                                      A N D                      U S E                      O F                I N F O R M A T                                         I O N 



                                       Profile of those aware of 1-800-MEDICARE. We explored the
                                       characteristics of beneficiaries who are aware of 1-800-MEDICARE to
                                       identify any useful lessons for educating beneficiaries about available
                                       resources. We found that receiving mail, seeing television ads, and
                                       hearing radio ads about the drug card program are significantly related
                                       to awareness of 1-800-MEDICARE. Beneficiaries who received no mail
                                       about the drug card program are much less likely to be aware of
                                       1-800-MEDICARE. Also, among enrolled beneficiaries, those who have
                                       seen television ads or heard radio ads about the drug card program are
                                       more likely to be aware of 1-800-MEDICARE than those who have not
                                       seen or heard such ads. Demographic characteristics (including income,
                                       age, education, and gender) are not related to awareness of 1-800
                                       MEDICARE. Appendix C provides details of this logistic regression
                                       analysis.

                                       CMS promoted this information source through the written materials it
                                       mailed to beneficiaries and through television and radio ads. It is
                                       plausible that beneficiaries learned that they could call this source for
                                       drug card information through CMS’s mail and ads, suggesting that
                                       these education efforts are effective for those whom they reach.
                                       However, not all beneficiaries heard ads or received any mail.
                                       Profile of those aware of SHIPs. We also analyzed characteristics of
                                       beneficiaries who are aware of SHIPs to identify any useful patterns. In
                                       April 2004, CMS awarded $21.1 million in grants for SHIPs to help
                                       Medicare beneficiaries understand and take advantage of new benefits,
                                       including the drug card.19
                                       We found three characteristics related to awareness of SHIPs. Two of
                                       these are hearing radio ads and receiving mail about the drug card
                                       program. Beneficiaries who have heard radio ads about the drug card
                                       program are more likely to be aware of SHIPs than those who have not.
                                       For example, 42 percent of the beneficiaries who have heard radio ads
                                       about the drug card are aware of SHIPs, compared to 12 percent of
                                       those who have not heard radio ads. Also, beneficiaries who received no
                                       mail about the drug card were less likely to be aware of SHIPs than
                                       those who received mail. It is possible that radio ads or mail informed
                                       beneficiaries about SHIPs, or they could have indirectly led to SHIP
                                       awareness by encouraging the beneficiary to seek out more information.

                                       The third characteristic is eligibility for the $600 credit, which was
                                       significant only among enrolled beneficiaries. Twenty-six percent of
                                       enrolled beneficiaries eligible for the $600 credit are aware of SHIPs as

OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   8
 A W A R E N E S S                                    A N D                      U S E                      O F                I N F O R M A T                                         I O N


                                          a source of information about the drug card, compared to 17 percent of
                                          those ineligible for the $600 credit. This difference is small but
                                          statistically significant. Other demographic characteristics (including
                                          age, education, and gender) are not significantly related to awareness of
                                          SHIPs. Appendix C provides details of this logistic regression analysis.



                                                                          Most beneficiaries obtained information
           Beneficiaries most commonly used
                                                                          about the drug card program by reading
passive sources such as news media and mail                               newspaper articles, seeing television
   for drug card information. Only one-fifth of                           news stories, or reading their mail.
    beneficiaries contacted a source requiring                            Overall, 65 percent of beneficiaries used
                           self-initiated action                          the news media (i.e., newspaper articles
                                                                          or televised news stories) and 53 percent
                                          used information in their mail to make enrollment decisions. We
                                          categorized news media and mail as “passively acquired” sources
                                          because obtaining information from these sources does not require the
                                          self-initiated action by the beneficiary needed to contact any of the other
                                          “actively acquired” sources.

                                          Overall, 21 percent of beneficiaries have contacted one or more of the
                                          following actively acquired sources for information on the drug card
                                          program: 1-800-MEDICARE, the Medicare Web site, card sponsors,
                                          pharmacies, or SHIPs.20 A greater proportion of enrolled beneficiaries
                                          (77 percent) used any actively acquired sources compared to nonenrolled
                                          beneficiaries (17 percent). However, because there are many more
                                          nonenrolled than enrolled beneficiaries in the population, the overall
                                          rate of use more closely reflects the use among nonenrolled
                                          beneficiaries.
                                          Nonenrolled beneficiaries tended to use passively acquired sources
                                          exclusively, compared to enrolled beneficiaries who also used actively
                                          aquired sources
                                          The majority of all beneficiaries used at least one passively acquired
                                          source (i.e., news media or mail) for information about the drug card
                                          program. Eighty-four percent of enrolled beneficiaries and 76 percent of
                                          nonenrolled beneficiaries used at least one passively acquired source.
                                          News media and mail were the two most commonly used information
                                          sources among both enrolled and nonenrolled beneficiaries.

                                          However, enrolled and nonenrolled beneficiaries differed dramatically
                                          in their use of actively acquired sources. Enrolled beneficiaries are
                                          significantly more likely to contact those sources. While 77 percent of

   OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   9
A W A R E N E S S                                   A N D                      U S E                      O F                I N F O R M A T                                         I O N


                                        enrolled beneficiaries used any actively acquired sources, only
                                        17 percent of nonenrolled beneficiaries contacted any of those sources
                                        for information about the drug card program.

                                        Enrolled and nonenrolled beneficiaries also differed significantly in
                                        their rate of use of each source, but the order of sources (from highest to
                                        lowest use) appears to be similar across these two groups. Table 3
                                        provides the rates of use for enrolled and nonenrolled beneficiaries for
                                        each source in our survey. 21


                                          TABLE 3: Beneficiary Use of Information Resources


                                         Information Resource                                 Enrolled Beneficiary Use                        Nonenrolled Beneficiary Use

                                         News Media (P)                                                                       69%                                                     64%

                                         Mail (P) *                                                                           68%                                                     52%

                                         Pharmacy (A) *                                                                       42%                                                     10%

                                         Card Sponsors (A) *                                                                  38%                                                       4%

                                         1-800-MEDICARE (A) *                                                                 27%                                                       3%

                                         Medicare Web site (A) *                                                                9%                                                      2%

                                         SHIP (A)                                                                               4%                                                      2%

                                      (A) denotes actively acquired source, (P) denotes passively acquired source. 

                                      *Statistically significant difference between enrolled and nonenrolled beneficiaries using CMH test, p<0.05. 

                                      Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




                                        For nonenrolled beneficiaries, awareness of actively acquired sources often
                                        did not result in use of those sources
                                        Awareness of an information source is necessary but not sufficient to

                                        result in a beneficiary using that source. For each actively acquired 

                                        source, we determined what proportion of nonenrolled beneficiaries 

                                        aware of the source used it. When we exclude the beneficiaries who are

                                        not aware of the information source, the rates of use among aware 

                                        beneficiaries increase slightly. When we ordered the sources by use,

                                        pharmacies showed the highest proportion of users among nonenrolled

                                        beneficiaries aware of pharmacies as an information resource. Of all 

                                        nonenrolled beneficiaries who knew they could get information from 

                                        their pharmacies, 21 percent contacted their pharmacies about the drug

                                        card program. In contrast, 5 percent of nonenrolled beneficiaries aware 




 OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   10
A W A R E N E S S                                   A N D                      U S E                      O F                I N F O R M A T                                         I O N


                                        of 1-800-MEDICARE called for information about the drug card. Table
                                        4 provides these rates for each source.


                                           TABLE 4: Nonenrolled Beneficiary Use by Those Aware of Source

                                                                                                                                            For How Many Beneficiaries Did
                                          Information Resource                                                     Awareness                     Awareness Result in Use?

                                          Pharmacy                                                                            41%                                                       21%

                                          Card Sponsors                                                                       38%                                                       12%

                                          SHIP                                                                                21%                                                         7%

                                          1-800-MEDICARE                                                                      56%                                                         5%

                                          Medicare Web site                                                                   47%                                                         5%

                                       Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.


                                        For nonenrolled beneficiaries, lack of drug coverage and use of passive
                                        sources predict use of actively acquired sources. As awareness does not
                                        necessarily lead to use, we explored other characteristics that might
                                        explain resource use among nonenrolled beneficiaries. Among
                                        nonenrolled beneficiaries aware of any sources, we found two factors
                                        that are related to their use of actively acquired sources. Appendix C
                                        provides details of this logistic regression analysis.

                                        Having other drug coverage is related to beneficiaries’ use (or lack of
                                        use) of actively acquired sources. Half of nonenrolled beneficiaries
                                        indicated that they have prescription drug coverage through another
                                        source such as retiree benefits.22 Among nonenrolled beneficiaries
                                        aware of any sources, those with existing drug coverage are less likely to
                                        contact any sources than those without drug coverage. Only 6 percent
                                        of nonenrolled beneficiaries with drug coverage contacted any actively
                                        acquired sources, compared to 41 percent of those without drug
                                        coverage. Drug coverage is not related to whether these beneficiaries
                                        used any passively acquired sources (news media or mail). One
                                        plausible explanation is that beneficiaries with drug coverage have less
                                        incentive to make an effort to contact an information source and instead
                                        rely on the information provided to them through the passively acquired
                                        sources. Appendix D provides information on existing drug coverage as
                                        an explanation for why some nonenrolled beneficiaries have decided not
                                        to enroll in a drug card.



 OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   11
A W A R E N E S S                                   A N D                      U S E                      O F                I N F O R M A T                                         I O N


                                        In addition, nonenrolled beneficiaries who have used any passively
                                        acquired sources are more likely to use any actively acquired sources
                                        than those who did not use news media or mail. Of those who used
                                        news media or mail, 30 percent also used at least one actively acquired
                                        source, compared to less than 1 percent of those who did not use news
                                        media or mail. It could be that use of mail or news media spurred
                                        beneficiaries to seek more information; alternatively, these beneficiaries
                                        may have greater interest in the program and therefore take advantage
                                        of multiple information sources.

                                        No other factors are significantly related to nonenrolled beneficiaries’
                                        use of actively acquired sources. Factors tested include demographic
                                        characteristics (age, education, income, gender, and marital status),
                                        seeing television or hearing radio ads about the drug card, and whether
                                        a proxy respondent completed the survey for the beneficiary.23
                                        For enrolled beneficiaries, card sponsors and pharmacies seemed to help
                                        the greatest proportion of beneficiaries who used them
                                        When we asked beneficiaries about the information resources they used,
                                        we also asked them to specify whether their use of each source helped or
                                        did not help them to make their enrollment decision. For each source,
                                        we determined the rate of users who were helped. We focused this
                                        analysis on enrolled beneficiaries to identify sources that helped
                                        beneficiaries decide to enroll, as encouraging enrollment will be a
                                        primary goal of outreach and education efforts for the new drug benefit.

                                        Contacting card sponsors and pharmacies seemed to help the greatest
                                        proportion of beneficiaries who used them, helping 86 percent and
                                        83 percent of users, respectively. Though the greatest number of
                                        beneficiaries used news media, this source helped the lowest proportion
                                        (56 percent) of the beneficiaries who used it. Table 5 shows enrolled
                                        beneficiaries’ use and the proportion of users helped for each source.




 OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   12
A W A R E N E S S                                   A N D                      U S E                      O F                I N F O R M A T                                         I O N 





                                           TABLE 5: Proportion of Users Helped by Source, Enrolled Beneficiaries

                                          Information Resource                                                                 Use                         Proportion of Users Helped

                                          News Media                                                                          61%                                                                56%

                                          Mail                                                                                61%                                                                65%

                                          Pharmacy                                                                            41%                                                                83%

                                          Card Sponsors                                                                       34%                                                                86%

                                          1-800-MEDICARE                                                                      25%                                                                68%

                                          Medicare Web site                                                                     8%                                                          (64%)*

                                          SHIP                                                                                  4%                                                          (77%)*

                                       * Because few beneficiaries used the Medicare Web site or SHIPs, confidence intervals for these estimates are wide.
                                       Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.


                                        The closed-ended survey questions used to calculate the proportion of
                                        users helped measured whether each source helped or not, but they did
                                        not rank the sources by their helpfulness. To identify the most helpful
                                        sources, we used an open-ended question that asked beneficiaries,
                                        “What was the most helpful source to get information about the
                                        Medicare approved drug discount card?” Of the enrolled beneficiaries
                                        who responded, the most commonly named sources were pharmacy
                                        (21 percent); media, including media ads (12 percent); and resources
                                        provided by Medicare (10 percent).



         Just over one-third of enrolled beneficiaries                         Thirty-seven percent of enrolled
           needed help with the enrollment process                             beneficiaries needed help with the
                                                                               process of signing up after they
                                        decided to enroll. We asked beneficiaries to specify for which steps in
                                        the process they needed assistance. Of these beneficiaries who needed
                                        help, 51 percent needed help filling out the enrollment form. Forty-four
                                        percent of those requiring assistance needed help applying for the $600
                                        credit, and 36 percent needed help obtaining an enrollment form.24
                                        Among the beneficiaries who needed help signing up, the most common
                                        sources that provided enrollment help were the pharmacy and
                                        1-800-MEDICARE
                                        Of the enrolled beneficiaries who needed help signing up for a card,
                                        81 percent identified at least one source that provided them enrollment


 OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   13
A W A R E N E S S                                      A N D                     U S E                      O F                I N F O R M A T                                         I O N 



                                       help. Pharmacies and 1-800-MEDICARE were the most common
                                       sources of enrollment help. Among the beneficiaries who needed
                                       assistance, 41 percent received help signing up from a pharmacy.
                                       Twenty-one percent obtained enrollment help from 1-800-MEDICARE.
                                       Ten percent of these beneficiaries called card sponsors for assistance
                                       with enrollment. Few enrolled beneficiaries obtained help with signing
                                       up from either the Medicare Web site or SHIPs.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   14
Δ    I FM I P N L D I I CN AG TS I O N S :                                                N E W                        D R U G                              B E N E F I T 




                                           When Medicare’s voluntary Part D drug benefit becomes available,
                                           beneficiaries will face more complicated enrollment decisions than they
                                           have under the drug card program. The potential costs and benefits to
                                           the beneficiaries are greater under the new drug benefit, and the
                                           program is more complex. Beneficiaries will need information, and
                                           perhaps individualized assistance, to decide whether to enroll in this
                                           drug benefit and to identify which plan best meets their needs. They
                                           may also need assistance completing the enrollment process.

                                           This inspection is intended to assist CMS in maximizing the
                                           effectiveness of their beneficiary education and outreach efforts for the
                                           new drug benefit. As such, we are reporting on beneficiaries’ awareness
                                           and use of drug card resources so that CMS can take these behaviors
                                           into account in implementing ongoing and future efforts. One might
                                           expect that beneficiaries will become aware of and obtain information
                                           about the drug benefit through channels similar to those they used for
                                           the drug card program. We suggest that CMS consider the following
                                           implications for the new drug benefit.
                                           IMPLICATIONS: BENEFICIARY AWARENESS OF RESOURCES

                                           For the new drug benefit, CMS should consider expanding the efforts it used
                                           to inform beneficiaries about the availability of information resources for the
                                           drug card program
                                           Overall, CMS’s efforts to inform beneficiaries about the availability of
                                           information resources seem to be effective in reaching most
                                           beneficiaries. Almost three-quarters of beneficiaries are aware of at
                                           least one source they could contact to obtain information about the drug
                                           card program. However, this message about availability of information
                                           resources did not reach all beneficiaries. Expanding these efforts and
                                           extending them to additional sources could help to increase awareness
                                           of some lesser-known sources of information. For example, we found
                                           that beneficiaries who received mail about the drug card, saw television
                                           ads, or heard radio ads were more likely to be aware of
                                           1-800-MEDICARE. We suggest that CMS continue to broaden its use of
                                           these and other methods to inform beneficiaries about the various
                                           information resources available for the new drug benefit.




    OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   15
I M P L I C A T I O N                                      S :               N      E W                  D R           U G                 B     E N E F                       I T


                                       IMPLICATIONS: BENEFICIARY USE OF RESOURCES

                                       CMS should recognize and consider capitalizing on beneficiaries’
                                       propensity to use passively acquired information
                                       Given that 91 percent of enrolled and 71 percent of nonenrolled
                                       beneficiaries used at least one passively acquired source of information
                                       (news media and mail), CMS could take advantage of these mechanisms
                                       to reach the greatest number of beneficiaries. Additionally, CMS could
                                       use these sources of information to promote increased use of actively
                                       acquired sources of information for the new drug benefit, including
                                       1-800-MEDICARE, the Medicare Web site, drug plan sponsors, SHIPs,
                                       and community-based organizations. Among nonenrolled beneficiaries,
                                       those who used passively acquired sources were more likely to contact
                                       any actively acquired sources.

                                       While CMS has less influence over the news media than other sources,
                                       news media is the most common source of information that beneficiaries
                                       used. CMS should consider making a concerted effort to properly
                                       educate the media about the new drug benefit. Efforts to reach out to
                                       news media outlets could help CMS to educate beneficiaries about the
                                       new drug benefit. These efforts could include holding press conferences;
                                       offering interviews with top Medicare officials; and disseminating press
                                       releases, fact sheets, and media information packets.

                                       Mail is also an important mechanism, commonly used by both enrolled
                                       and nonenrolled beneficiaries. We suggest that CMS continue to invest
                                       in developing and disseminating useful outreach and education
                                       materials by mail. CMS should consider using the mail to reach as
                                       many beneficiaries as possible but not rely solely on this method to
                                       reach all beneficiaries. Almost half of all beneficiaries indicated that
                                       they did not receive any mail about the drug card despite CMS’s efforts
                                       to mail information to all beneficiaries.
                                       CMS should consider collaborating with the actively acquired sources that
                                       beneficiaries contact most frequently, including pharmacies and sponsors
                                       CMS should consider working collaboratively with pharmacies because
                                       pharmacies were the most commonly contacted source of information
                                       about the drug card. In addition, among enrolled beneficiaries,
                                       pharmacies helped 83 percent of beneficiaries who contacted them. One
                                       might expect that beneficiaries will turn to pharmacies for similar
                                       assistance with the new drug benefit. Recognizing this, CMS could
                                       work with pharmacies to assist them in responding to beneficiary
                                       inquires. This assistance could include disseminating fact sheets or

OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   16
I M P L I C A T I O N                                   S :               N      E W                  D R           U G                 B     E N E F                      I T


                                        other materials to pharmacists to provide to beneficiaries and informing
                                        pharmacists about how to direct beneficiaries to other information
                                        sources, such as 1-800-MEDICARE, a local SHIP, or a community-based
                                        organization.

                                        Card sponsors were the second most commonly contacted source for
                                        drug card information. Also, among enrolled beneficiaries, card
                                        sponsors seemed to help the highest rate (86 percent) of beneficiaries
                                        who used them. In their oversight capacity, CMS should work with
                                        drug plan sponsors to ensure that they also provide beneficiaries with
                                        helpful information about the new drug benefit. OIG conducted another
                                        inspection, focused specifically on card sponsors’ beneficiary education
                                        materials, which provides more detailed suggestions to CMS on
                                        beneficiary education by drug plan sponsors. Suggestions include
                                        requiring sponsors to provide specific information critical to beneficiary
                                        understanding of the program, providing model materials for sponsors,
                                        and facilitating in-person education of beneficiaries.25
                                        IMPLICATIONS: ENROLLMENT PROCESS

                                        Anticipating the need for enrollment assistance, CMS could promote
                                        available sources of assistance and continue to invest in the capacity of
                                        those sources to meet beneficiary needs
                                        While the enrollment process has not been implemented yet, we
                                        anticipate that a significant number of beneficiaries may need help
                                        enrolling in a drug plan. More than one-third of enrolled beneficiaries
                                        needed help with the enrollment process for the drug card program,
                                        which is a simpler process than the drug benefit enrollment process will
                                        be. Of these beneficiaries, about half needed help filling out the
                                        enrollment form.

                                        Promoting available sources of enrollment assistance could help such
                                        beneficiaries to identify available information sources. Given the
                                        potentially large number of beneficiaries needing assistance, these
                                        sources may benefit from continued investment by CMS in the capacity
                                        of those sources to meet beneficiaries’ needs. For the drug card
                                        program, pharmacies and 1-800-MEDICARE were the most common
                                        sources where beneficiaries obtained help with enrollment. CMS plans
                                        to develop an online enrollment system to facilitate drug plan
                                        enrollment by SHIPs, community-based organizations, and other
                                        partners. We support this initiative and encourage CMS to continue to
                                        develop strategies for simplifying the enrollment process.



 OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   17
I M P L I C A T I O N                                   S :                     N E W                      D R           U G                 B     E N E F                       I T                 




                                        AGENCY COMMENTS
                                        CMS stated that it views the drug card as an important opportunity for
                                        “lessons learned” for outreach and education strategies for the drug
                                        benefit and agreed with each of the implications for the drug benefit
                                        that we suggested. CMS noted that it has substantially more time to
                                        plan for the drug benefit, as compared to the drug card program, and
                                        thus has been able to develop stronger collaborations and partnerships
                                        to achieve these goals. CMS detailed several planned and ongoing
                                        outreach and education activities related to our suggestions. The
                                        agency described a targeted education effort that incorporates media
                                        advertising, simple fact sheets, detailed publications, direct mail, and
                                        community-based grassroots outreach with numerous partners
                                        (including pharmacies). CMS also highlighted the personalized
                                        information available through the Drug Plan Compare web tool and
                                        1-800-MEDICARE. CMS thanked OIG for providing constructive and
                                        timely information. The complete text of CMS’s comments is included
                                        in Appendix F.


                                        OFFICE OF INSPECTOR GENERAL RESPONSE
                                        OIG appreciates CMS’s response to this report and the detailed
                                        descriptions of its ongoing and planned beneficiary outreach and
                                        education efforts for the drug benefit. These descriptions highlight
                                        substantial efforts by CMS toward beneficiary outreach and education.
                                        This inspection is intended to assist CMS in maximizing the
                                        effectiveness of beneficiary information and outreach efforts for the drug
                                        benefit. We are pleased that CMS found this information to be
                                        constructive and agrees with our suggestions. We recognize that CMS
                                        is devoting substantial effort toward beneficiary outreach and
                                        education.




 OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   18
  Δ         E N D N O T E S                                               





                                       1   Centers for Medicare & Medicaid Services, “2004 CMS Statistics,”
                                           Table 1, October 2004.

                                       2   Part B summary data, CMS National Claims History file, calendar year
                                           2003.

                                       3   Centers for Medicare & Medicaid Services, “Medicare Fact Sheet: Final
                                           Rules Implementing the New Medicare Law: A New Prescription Drug
                                           Benefit for All Medicare Beneficiaries, Improvements to Medicare
                                           Health Plans and Establishing Options for Retirees,” p. 3, January 21,
                                           2005.

                                       4   Congressional Budget Office, “The Budget and Economic Outlook: Fiscal
                                           Years 2006 to 2015,” p. 55. January 2005. Also, Centers for Medicare
                                           & Medicaid Services, “Releasing the HHS proposed budget for FY2006,”
                                           February 7, 2005.

                                       5   Centers for Medicare & Medicaid Services, “Fact Sheet: Medicare
                                           Modernization Benefits in the First Year,” December 8, 2004.

                                       6   Low-income beneficiaries who receive Medicaid, TRICARE (military
                                           health insurance), the Federal Employees Health Benefit Program, or
                                           an employer’s health plan are not eligible to enroll in the Transitional
                                           Assistance program.

                                       7   Centers for Medicare & Medicaid Services, “Fact Sheet: Medicare
                                           Modernization Benefits in the First Year,” December 8, 2004.

                                       8   HHS Press Release, March 25, 2004.

                                       9 Centers   for Medicare & Medicaid Services, Press Release: “CMS Begins
                                           to Award $21 Million in Grants to SHIPs,” April 6, 2004. Available
                                           online at
                                           http://www.cms.hhs.gov/media/press/release.asp?Counter=1004.

                                       10 Medicare   Prescription Drug, Improvement, and Modernization Act of
                                           2003, P.L. 108-173, § 101, subpart 4, codified in § 1860D-31 (d)(2)(A) of
                                           the Social Security Act.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   19
                                       11   P.L. 108-173.

                                       12 42   CFR § 403.806(g)(5)(i) requires sponsors to “. . . comply with the 

                                            Information and Outreach Materials Guidelines published by CMS.” 

                                            CMS initially published the “Medicare Prescription Drug Discount 

                                            Card and Transitional Assistance Program, Information & Outreach 

                                            Materials Guidelines” on January 22, 2004, and subsequently revised 

                                            these guidelines in August 2004. 


                                       13   68 Fed. Reg. 69867-8 (December 15, 2003).

                                       14   68 Fed. Reg. 69869 (December 15, 2003).

                                       15   Medicare News Release, Saturday, April 17, 2004.

                                       16   Centers for Medicare & Medicaid Services, “Ensuring the Success of 

                                            the New Medicare Drug Benefit,” Issue Paper #24, January 19, 2005. 

                                            Available online at

                                            http://www.cms.hhs.gov/medicarereform/pdbma/aiandocs/issue_paper_24__ensuri
                                            ng_success-aian.pdf.

                                       17   In our survey instrument, we used the proper name and abbreviation 

                                            of the State Health Insurance Assistance Program in the beneficiary’s 

                                            State. For example, for respondents in New York, we referred to the 

                                            New York State Health Insurance Information, Counseling, & 

                                            Assistance Program (HICAP) in all relevant questions. 


                                       18   We were not able to test for statistically significant differences in
                                            awareness across each source as beneficiaries could indicate awareness
                                            of multiple sources.

                                       19   Centers for Medicare & Medicaid Services, Press Release: “CMS 

                                            Begins to Award $21 Million in Grants to SHIPs,” April 6, 2004. 

                                            Available online at

                                            http://www.cms.hhs.gov/media/press/release.asp?Counter=1004. 


                                     20   The rate of “any use” across these five sources may overestimate use
                                          based on the way we calculated it. Our survey included a question on
                                          use for each source, and a respondent only had to tell us they used one
                                          of these sources to be counted as a “yes” for “any use.” However, a




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   20
                                            respondent would have to answer all five questions to be counted as a
                                            “no” for “any use.” If a beneficiary said “I did not use” to four sources
                                            and left the fifth source blank, that beneficiary is excluded from this
                                            calculation, making the denominator (“no use”) smaller.

                                       21   All rates of use are based on beneficiaries who definitively indicated
                                            that they used or did not use a specific source. “Don’t know” or missing
                                            values are excluded.

                                       22   We did not ask a general question about whether beneficiaries had any
                                            source of drug coverage. These 51% of nonenrolled beneficiaries
                                            indicated having drug coverage either by checking “I have other
                                            prescription drug insurance” in the list of reasons why the beneficiary
                                            was not going to sign up or was undecided about signing up for a drug
                                            card, or by checking the specific coverage types about which we asked—
                                            Employee/Retiree health plan,” “TRICARE for Life,” or “Federal
                                            Employees Health Benefit Program (FEHBP).”

                                       23   We asked that if someone other than the beneficiary makes health care
                                            decisions on behalf of the beneficiary, then that person complete the
                                            survey. Approximately 20 percent of surveys were completed by
                                            someone else on behalf of the beneficiary, i.e., a “proxy respondent.”

                                       24   Totals exceed 100 percent because some beneficiaries needed help with
                                            more than one step in the enrollment process.

                                       25   “Assessment of Sponsors’ Materials under the Medicare-Approved
                                             Drug Discount Card Program” (OEI-05-04-00190).




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   21
  Δ         A P P E N D I X                                             ~           A             



                                       DETAILED METHODOLOGY
                                       Sampling
                                       Our population is Medicare beneficiaries who are eligible to participate
                                       in the drug card program, which includes all Medicare beneficiaries
                                       except for those who receive drug benefits under Medicaid. We also
                                       excluded beneficiaries who were automatically enrolled in a particular
                                       drug card by their Medicare Advantage plan.

                                       From this population, we selected a stratified random sample of
                                       beneficiaries from four mutually exclusive strata based on two criteria:
                                       enrollment status and eligibility for the $600 credit. To achieve our first
                                       stratification, we distinguished beneficiaries who had enrolled in the
                                       drug card program as of August 1, 2004 (enrolled beneficiaries), from
                                       those who had not enrolled by that date (nonenrolled beneficiaries).
                                       From the enrolled beneficiaries, we further stratified based on whether
                                       the beneficiary was enrolled in the $600 credit. For the nonenrolled
                                       beneficiary population, we stratified based on whether the beneficiary
                                       resided in a low-income ZIP code. We used low-income ZIP codes as a
                                       proxy to ensure that our sample would include some nonenrolled
                                       beneficiaries who would be eligible for the $600 credit. Table 6 provides
                                       the description, population size, and sample size for each of our four
                                       strata.


                                       TABLE 6: Population and Sample Size, by Strata
                                                                                                                                                           Population                Sample
                                      Strata Description                                                                                                         Size                  Size

                                      1. Enrolled beneficiaries receiving $600 credit                                                                           817,969                    300

                                      2. Enrolled beneficiaries not receiving $600 credit                                                                       928,928                    250

                                      3. Nonenrolled beneficiaries residing in low-income ZIP code                                                                38,524                   400

                                      4. Nonenrolled beneficiaries not residing in low-income ZIP code                                                    33,346,431                       220

                                                                                                                                      Totals               35,131,852                   1,170


                                       We obtained our populations of enrolled and nonenrolled beneficiaries
                                       (as of August 1, 2004) from CMS. For enrolled beneficiaries, the CMS
                                       data included an indicator for whether the beneficiary was also enrolled
                                       in the $600 credit. We used this indicator to distinguish strata 1 from
                                       strata 2, and then randomly selected our samples from each strata.


OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   22
    A   P   P E N D                  I X ~              A


                                       To stratify the nonenrolled beneficiaries, we used data from the year
                                       2000 Bureau of the Census to identify low-income ZIP codes. We
                                       defined low-income ZIP codes as residential ZIP codes where the median
                                       income was at or below 135 percent of the Federal poverty level in 2000.
                                       We used 135 percent of poverty because this is the income threshold for
                                       eligibility for the $600 credit.
                                       Survey and Response Rates
                                       We developed two survey instruments, one for enrolled beneficiaries and
                                       one for nonenrolled beneficiaries. Most of our key survey questions on
                                       awareness and use of resources were identical across the two surveys.
                                       This allows us to combine information across all respondents and
                                       project to the total population. However, our questions regarding
                                       enrollment differed. For example, we asked enrolled beneficiaries about
                                       whether they needed and received help with the enrollment process.
                                       We asked nonenrolled beneficiaries whether they plan to enroll in a
                                       card and why they had not enrolled.

                                       We allowed proxy respondents. We asked that if someone other than
                                       the beneficiary makes health care decisions on behalf of the beneficiary,
                                       then that person complete the survey. Approximately 20 percent of
                                       surveys were completed by someone else on behalf of the beneficiary.

                                       We conducted these surveys primarily by mail. In addition, we hired a
                                       contractor to call beneficiaries who did not respond to the mail survey.
                                       For beneficiaries with valid phone numbers, we made three attempts by
                                       mail and eight attempts by phone to obtain their responses. For
                                       beneficiaries without valid phone numbers, we made five mail attempts.
                                       These surveys were conducted between September and December 2004.

                                       Our overall response rate was 65 percent. Enrolled beneficiaries
                                       responded at a higher rate (75 percent) than nonenrolled beneficiaries
                                       (56 percent). Table 7 provides the response rates by strata and in total.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   23
A    P   P E N D            I X ~              A            





                                       TABLE 7: Response Rates by Strata

                                                                                                                                                            Sample                   Response
                                      Strata Description                                                                                                      Size                       Rate

                                      1. Enrolled beneficiaries receiving $600 credit                                                                              300                        74%

                                      2. Enrolled beneficiaries not receiving $600 credit                                                                          250                        77%

                                      3. Nonenrolled beneficiaries residing in low income ZIP code                                                                 400                        50%

                                      4. Nonenrolled beneficiaries residing in non-low income ZIP code                                                             220                        67%

                                                                                                                                         Total                  1,170                         65%


                                           Nonresponse Analysis
                                           Nonresponse can bias survey estimates if nonrespondents would have
                                           answered questions differently than respondents did, so we analyzed
                                           how nonresponse to our survey may have affected our survey estimates.
                                           We examined potential nonresponse bias effects on key survey questions
                                           related to awareness and use of each information source in our survey.
                                           Variables we had available for both respondent and nonrespondent
                                           beneficiaries were age, sex, race, and strata. We also categorized our
                                           respondents as either “early” or “late” responders depending on how
                                           many attempts it took to obtain their response.

                                           Our analysis provides no evidence that our survey results are biased
                                           due to nonresponse. Our general approach for each key variable was to
                                           impute missing data values, calculate a point estimate that included
                                           these imputed values, and compare this point estimate to our survey
                                           estimate from only respondent data. We imputed missing values using
                                           a two-stage method. First, we conducted multiple logistic regression
                                           analysis using the age, sex, race, and strata variables to predict
                                           response propensity to each key question. Second, we used information
                                           on how “late responders” answered key questions to impute specific
                                           values for nonrespondents. We assumed our imputed estimate was
                                           unbiased, and if it fell within the 95-percent confidence interval of the
                                           respondent-only estimate, then we judged our survey estimate
                                           unbiased. All point estimates using both respondent and
                                           nonrespondent-imputed data fell within the confidence intervals of our
                                           respondent-only estimates, indicating no evidence of bias.
                                           Survey Analysis
                                           We used several methods to analyze the survey data and focused on the
                                           key questions related to our objective, i.e., questions about awareness

    OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   24
    A   P   P E N D                  I X ~              A


                                       and use of information resources and the enrollment process. We first
                                       calculated basic frequencies, weighted proportions, and confidence
                                       intervals using the statistical package SUDAAN. Appendix B provides
                                       confidence intervals for key variables at the 95 percent confidence level.
                                       We weighted the data based on probability of selection. It is important
                                       to note that beneficiaries in strata 4 have a substantially greater weight
                                       than the other three strata because the strata (not enrolled, not low-
                                       income ZIP code) represents 95 percent of the total sampling population.

                                       Next, we ran Cochran-Mantel Haenszel chi-square (CMH) tests (a chi-
                                       square test designed for stratified samples) to identify significant
                                       difference between enrolled and nonenrolled beneficiaries. We also
                                       tested for significant associations among our key awareness and use
                                       variables. We considered associations to be statistically significant if
                                       the p-value was less than 0.05. Finally, we used SUDAAN to conduct
                                       logistic regression analysis to identify significant predictors of key
                                       variables, including awareness and use of specific sources. Appendix C
                                       provides additonal details on our logitic regression analysis.

                                       In addition to our key questions on awareness, use, and enrollment, we
                                       analyzed information pertaining to beneficiaries’ knowledge of the drug
                                       card program and nonenrolled beneficiaries’ enrollment decisions. This
                                       information is presented in Appendixes D and E.

                                       This inspection was conducted in accordance with the Quality
                                       Standards for Inspections issued by the President’s Council on Integrity
                                       and Efficiency.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   25
  Δ         A P P E N D I X                                             ~            B            



                                       CONFIDENCE INTERVALS FOR KEY STATISTICS
                                       Table 8 provides confidence intervals for key statistics presented in the
                                       report for the overall population of beneficiaries (enrolled and
                                       nonenrolled). Tables 9 and 10 present confidence intervals for the
                                       enrolled beneficiary population for key statistics on awareness and use
                                       of information resources. Tables 11 and 12 provide information on the
                                       same statistics for the nonenrolled beneficiary population. Table 13
                                       presents confidence intervals for statistics on enrollment assistance.


                                        TABLE 8: Key Statistics, All Beneficiaries
                                                                                                                                                                                95 Percent
                                                                                                                                                           Point               Confidence
                                       Percent of Beneficiaries:                                                                             n         Estimate                    Interval
                                       Aware of any of the following information resources:
                                       1-800-MEDICARE, Medicare Web site, card sponsor,                                                    741                72%                    64-79%
                                       SHIP, or pharmacy

                                       Used any of the following actively acquired sources:
                                       1-800-MEDICARE, Medicare Web site, card sponsor,                                                    586                21%                    15-29%
                                       SHIP, or pharmacy

                                       Used any of the following passively acquired sources:
                                                                                                                                           664                76%                    68-82%
                                       news media or mail

                                       Used news media                                                                                     662                65%                    56-72%

                                       Used mail                                                                                           660                53%                    45-61%

                                       Saw television ads about the drug card                                                              706                71%                    63-77%

                                       Heard radio ads about the drug card                                                                 698                26%                    19-33%

                                       Received no mail about the drug card program                                                        721                48%                    40-56%

                                    Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   26
A    P   P E N D            I X ~              B            





                                            TABLE 9: Awareness Statistics, Enrolled Beneficiaries
                                                                                                                                                                                    95 Percent
                                           Percent of enrolled beneficiaries who are aware they                                                                Point               Confidence
                                           can get drug card information from:                                                                   n         Estimate                    Interval
                                           Any of the following information resources:
                                           1-800-MEDICARE, Medicare Web site, card sponsor,                                                    408                91%                    87-93%
                                           SHIP, or pharmacy

                                           1-800-MEDICARE                                                                                      406                75%                    70-79%

                                           Card sponsors                                                                                       407                65%                    60-70%

                                           Pharmacy                                                                                            409                60%                    55-65%

                                           Medicare Web site                                                                                   405                58%                    53-63%

                                           State Health Insurance Assistance Program                                                           410                22%                    18-26%

                                        Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




                                            TABLE 10: Use Statistics, Enrolled Beneficiaries

                                                                                                                                                                                    95 Percent
                                           Percent of enrolled beneficiaries who used the                                                                      Point               Confidence
                                           following sources for information about the drug card:                                                n         Estimate                    Interval
                                           Any actively acquired sources (i.e., 1-800-MEDICARE,
                                                                                                                                               341                77%                    72-81%
                                           Medicare Web site, card sponsor, SHIP, or pharmacy)

                                           Any passively acquired sources (i.e., news media or
                                                                                                                                               372                84%                    80-87%
                                           mail)

                                           News media                                                                                          365                69%                    64-73%

                                           Mail                                                                                                370                68%                    63-73%

                                           Pharmacy                                                                                            389                42%                    38-47%

                                           Card sponsors                                                                                       336                38%                    33-44%

                                           1-800-MEDICARE                                                                                      360                27%                    23-32%

                                           Medicare Web site                                                                                   351                  8%                     6-12%

                                           State Health Insurance Assistance Program                                                           330                  4%                       2-6%

                                        Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




    OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   27
A    P   P E N D            I X ~              B            





                                            TABLE 11: Awareness Statistics, Nonenrolled Beneficiaries

                                                                                                                                                                                    95 Percent
                                           Percent of nonenrolled beneficiaries who are aware                                                                  Point               Confidence
                                           they can get drug card information from:                                                              n         Estimate                    Interval
                                           Any of the following information resources:
                                           1-800-MEDICARE, Medicare Web site, card sponsor,                                                    333                71%                    63-78%
                                           SHIP, or pharmacy

                                           1-800-MEDICARE                                                                                      336                56%                    47-64%

                                           Medicare Web site                                                                                   333                47%                    39-55%

                                           Pharmacy                                                                                            334                41%                    33-49%

                                           Card sponsors                                                                                       330                38%                    30-46%

                                           State Health Insurance Assistance Program                                                           332                21%                    15-29%

                                        Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




                                            TABLE 12: Use Statistics, Nonenrolled Beneficiaries

                                                                                                                                                                                    95 Percent
                                           Percent of nonenrolled beneficiaries who used the                                                                   Point               Confidence
                                           following sources for information about the drug card:                                                n         Estimate                    Interval
                                           Any actively acquired sources (i.e., 1-800-MEDICARE,
                                                                                                                                               245                17%                    11-26%
                                           Medicare Web site, card sponsor, SHIP, or pharmacy)

                                           Any passively acquired sources (i.e., news media or
                                                                                                                                               292                76%                    67-83%
                                           mail)

                                           News media                                                                                          297                64%                    56-72%

                                           Mail                                                                                                290                52%                    39-57%

                                           Pharmacy                                                                                            314                10%                      6-16%

                                           Card sponsors                                                                                       326                  4%                       2-9%

                                           1-800-MEDICARE                                                                                      333                  3%                       1-8%

                                           Medicare Web site                                                                                   326                  2%                       1-7%

                                           State Health Insurance Assistance Program                                                           253                  2%                       0-7%

                                        Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




    OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   28
  A   P   P E N D                I X ~              B           





                                   TABLE 13: Enrollment Assistance, Enrolled Beneficiaries

                                                                                                                                                                                95 Percent
                                                                                                                                                           Point               Confidence
                                  Percent of Enrolled Beneficiaries:                                                                        n          Estimate                    Interval

                                  Needed help signing up for a drug card                                                                   416               37%                     32-41%

                                  Of those beneficiaries who needed help enrolling,
                                  percent:

                                  Needed help filling out the enrollment form                                                              155               51%                     43-59%

                                  Needed help applying for the $600 credit                                                                 155               44%                     36-52%

                                  Needed help obtaining the enrollment form                                                                155               36%                     29-44%

                                  Obtained enrollment assistant from any source                                                            155               81%                     74-86%

                                  Obtained enrollment assistance from a pharmacy                                                           155               41%                     33-49%

                                  Obtained enrollment assistance from 1-800-MEDICARE                                                       155               21%                     15-28%

                                  Obtained enrollment assistance by calling a card sponsor                                                 155               10%                       6-16%

                               Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   29
  Δ         A P P E N D I X                                             ~            C            



                                       LOGISTIC REGRESSION MODELS
                                       We used logistic regression to identify predictors of several key
                                       variables. We first ran CMH tests (a chi-square test designed for
                                       stratified samples) to identify variables that were significantly related
                                       (p value <0.05) to our variable of interest. Then, we included these
                                       significant variables in a logistic regression model predicting the
                                       dependent variable of interest.

                                       The following tables display the odds ratios for each of the significant
                                       predictors (at p< 0.05 level) in each of those logistic regressions. The
                                       nonsignificant variables are also listed below each table. In logistic
                                       regression, an odds ratio of one is considered neutral, an odds ratio
                                       greater than one is considered a positive relationship, and anything less
                                       than one indicates a negative relationship. For example, as shown in
                                       Model 1 below, beneficiaries who have seen television ads about the
                                       drug card are 2.80 times more likely to be aware of 1-800-MEDICARE
                                       than beneficiaries who have not seen such ads.
                                       Logistic Regression Model 1: Awareness of 1-800-MEDICARE
                                       The model in Table 14 predicts whether an enrolled beneficiary is aware
                                       that he/she can obtain information about the drug card by calling
                                       1-800-MEDICARE.


                                       TABLE 14: TV and Radio Ads and Receiving Mail Predicting Awareness
                                       of 1-800-MEDICARE, Enrolled Beneficiaries


                                      Independent Variable                                                                                       Odds Ratio                         P-value

                                      Receiving no mail                                                                                                     0.33                       0.000

                                      Seeing television ads about the drug card                                                                             3.91                       0.024

                                      Hearing radio ads about the drug card                                                                                 2.80                       0.000

                                      Variables that were not significantly related: income, age, education, gender

                                   Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.


                                       We also tested relationships for all beneficiaries. Among all
                                       beneficiaries, not receiving any mail about the drug card strongly
                                       predicted that the beneficiary is not aware that he/she can get drug card
                                       information from 1-800-MEDICARE. In fact, the odds ratio for this
                                       variable approached zero. An odds ratio of zero would mean that a
                                       beneficiary who receives no mail has zero odds of being aware of

OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   30
    A   P   P E N D                  I X ~              C


                                       1-800-MEDICARE, i.e., awareness is impossible. For all beneficiaries,
                                       seeing television ads and hearing radio ads were each significantly
                                       related to awareness of 1-800-MEDICARE among all beneficiaries in
                                       CMH significance tests, but they were no longer significant when
                                       included in the regression model along with receiving no mail.
                                       Logistic Regression Model 2: Awareness of SHIP
                                       The model in Table 15 predicts whether a beneficiary will be aware that
                                       he/she can obtain information about the drug card by contact a SHIP.


                                       TABLE 15: Radio Ads and Receiving Mail Predicting Awareness of SHIP,
                                       All Beneficiaries


                                      Independent Variable                                                                                       Odds Ratio                          P-value

                                      Hearing radio ads about the drug card                                                                                 3.88                        0.005

                                      Receiving no mail about the drug card                                                                                 0.32                        0.028

                                      Variables that were not significantly related: income, age, education, gender

                                   Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.


                                       In contrast to the variables that were not related to awareness (such as
                                       gender), seeing television ads about the drug card was significantly
                                       related to SHIP awareness in a CMH significance test. However, seeing
                                       television ads was no longer significant in the regression model above
                                       once the other variables were included. Also, being eligible for the
                                       $600 credit was significantly related to SHIP awareness only among
                                       enrolled beneficiaries.
                                       Logistic Regression Model 3: Nonenrolled Beneficiaries’ Use of Any

                                       Actively Acquired Sources 

                                       The model in Table 16 predicts whether a nonenrolled beneficiary, who
                                       is aware of any actively acquired source (1-800-MEDICARE, Medicare
                                       Web site, card sponsor, SHIP, pharmacy) will contact at least one of
                                       those sources.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   31
    A   P   P E N D                  I X ~              C           





                                       TABLE 16: Predicting Use of Any Actively Acquired Sources,
                                       Nonenrolled Beneficiaries

                                      Independent Variable                                                                                        Odds Ratio                          P-value

                                      Having other drug coverage                                                                                             0.13                        0.014

                                      Using any passively acquired sources (news media or
                                                                                                                                                         510.44                          0.000
                                      mail)

                                      Variables that were not significantly related : income, age, education, gender, marital status,
                                      proxy respondent, seeing television ads, hearing radio ads, receiving no mail
                                   Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   32
Δ          A P P E N D I X                                            ~            D            




                                       ENROLLMENT DECISIONS AND EXPLANATIONS
                                       While our inspection report focused on beneficiaries’ awareness and use
                                       of information resources, we have additional information from our
                                       survey that falls outside this scope. The information here addresses the
                                       enrollment decisions of nonenrolled beneficiaries and the reasons they
                                       provided for those decisions.
                                       Enrollment Decisions of Nonenrolled Beneficiaries
                                       We asked nonenrolled beneficiaries about their enrollment decision. In
                                       response to this closed-ended question, 47 percent of nonenrolled
                                       beneficiaries indicated that they will not sign up for a card, and
                                       40 percent indicated that they are undecided. Five percent indicated
                                       that they have signed up for a drug card. See Table 17. As noted in the
                                       methodology, we pulled our sample of nonenrolled beneficiaries in
                                       August 2004, and surveys were completed between September and
                                       December 2004.


                                          TABLE 17: Enrollment Decisions of Nonenrolled Beneficiaries



                                         Decision

                                         I am not going to sign up for a Medicare drug card.                                                                                               47%

                                         I have not yet decided whether to sign up for a Medicare drug card.                                                                               40%

                                         I am going to sign up for a Medicare drug card but have not applied.                                                                                  8%

                                         I signed up for a Medicare drug card.                                                                                                                 5%

                                      Source: Office of Inspector General analysis of national survey of Medicare beneficiaries, 2005.




                                       Explanations for Enrollment Decisions
                                       Reasons for not signing up. Many beneficiaries who say they are not
                                       going to sign up for the drug card may have decided against enrollment
                                       because they do not need the drug card or it would not benefit them.
                                       Eighty percent of the 47 percent of beneficiaries who decided not to sign
                                       up indicated it is because they have other drug coverage. Enrolling in
                                       the drug card may not be worthwhile for beneficiaries who already have
                                       insurance coverage. Additional reasons for not signing up include: “The
                                       Medicare card will not save me money” (23 percent), “I am not eligible
                                       or cannot tell if I am eligible” (17 percent), and “I do not have the

OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   33
    A   P   P E N D                  I X ~              D


                                       information I need” (13 percent). Some beneficiaries provided more
                                       than one reason for not signing up.
                                       Reasons for being undecided about signing up. In general, nonenrolled
                                       beneficiaries who are undecided about signing up seem to need more
                                       information about the drug card. The most common reasons these
                                       beneficiaries gave for being undecided are lack of information and
                                       confusion about eligibility. Forty-nine percent of those who are
                                       undecided about signing up indicated “I do not have the information I
                                       need,” and 49 percent said they could not determine if they would save
                                       money with the card.

                                       We considered whether beneficiaries who said they did not have the
                                       information they needed shared any characteristics that would help to
                                       explain their answer. We did not find any significant relationships.
                                       Lack of information was not related to awareness of any information
                                       resources. Nor was it related to the number of sources the beneficiary is
                                       aware of, number of sources used, or use of actively or passively
                                       acquired sources.

                                       Additonal reasons beneficiaries gave for being undecided about signing
                                       up include: “I am not eligible or cannot tell if I am eligble” (29 percent),
                                       “I have other presrcription drug coverage” (25 percent), and “I am
                                       waiting to see if prices go down” (20 percent).




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   34
  Δ         A P P E N D I X                                             ~            E            



                                       BENEFICIARY KNOWLEDGE OF DRUG CARD PROGRAM
                                       While our inspection report focused on beneficiaries’ awareness and use
                                       of information resources, we have additional information from our
                                       survey that falls outside this scope. The information here addresses
                                       beneficiary knowledge of the drug card program.
                                       General Card Program
                                       Nearly all beneficiaries are aware of the drug card program, but many
                                       nonenrolled beneficiaries are confused about eligibility for a drug card.
                                       One hundred percent of enrolled beneficiaries and 95 percent of
                                       nonenrolled beneficiaries are aware of the drug card program. Only
                                       about half of nonenrolled beneficiaries know that they are eligible to
                                       sign up for a drug card. It is plausible that some of these beneficiaries
                                       confuse eligibility criteria for the $600 credit with eligibility for the card
                                       program. When asked why they are not eligible for a drug card, the
                                       most common reasons beneficiaries offered relate to having too much
                                       income or having other insurance coverage.
                                       $600 Credit
                                       Most beneficiaries are aware of the $600 credit, although significantly
                                       more enrolled than nonenrolled beneficiaries know of this benefit. We
                                       asked all beneficiaries whether they have ever heard that some low-
                                       income beneficiaries can get a $600 credit on their Medicare drug cards.
                                       Ninety-one percent of enrolled beneficiaries are aware of the $600 credit
                                       compared to 76 percent of nonenrolled beneficiaries. Higher awareness
                                       among enrolled beneficiaries is not surprising when we consider that in
                                       our survey population almost half of the beneficiaries enrolled in the
                                       drug card program are also enrolled in the $600 credit.

                                       In addition, we determined beneficiaries’ actual eligibility for the
                                       $600 credit based on their reported income, marital status, and
                                       insurance coverage. We then compared actual eligibility to whether the
                                       beneficiaries think they are eligible for the $600 credit. We found that,
                                       overall, only 30 percent of the beneficiaries who are actually eligible for
                                       the $600 credit realize they are eligible. Comparing enrolled to
                                       nonenrolled beneficiaries, only 21 percent of nonenrolled beneficiaries
                                       who are eligible for the $600 realized they are eligible for the $600
                                       credit. Seventy-two percent of enrolled beneficiaries who are eligible for
                                       the credit are aware of their eligibility.

                                       Most nonenrolled beneficiaries who think they are not eligible for the
                                       $600 credit cited income or assets as a reason for their ineligibility. It is

OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   35
    A P P E N D                      I X ~ E


                                       possible that some of these beneficiaries mistakenly think that, despite
                                       their low income, their financial assets disqualify them from receiving
                                       the $600 credit. Alternatively, some might understand that income is a
                                       qualifying factor for the $600 credit, but do not know what level of
                                       income qualifies them.
                                       Choice of Cards
                                       Virtually no beneficiaries recognize the breadth of drug cards available
                                       from which to choose, and over one-quarter of beneficiaries do not
                                       realize they have a choice of cards at all. When asked a closed-ended
                                       question about how many cards are available to choose from, less than
                                       one percent correctly identified that there are “16 or more” drug cards
                                       available. Nineteen percent of beneficiaries recognize that they have
                                       some choice by indicating “2 to 15” cards are available. However,
                                       27 percent of beneficiaries do not think they have any choice of cards.
                                       The remaining 54 percent of beneficiaries responded “don’t know.”




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   36
  Δ         A P P E N D I X                                             ~            F           





OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   37 

    A P P E N D                      I X ~ F 





OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   38 

    A P P E N D                      I X ~ F 





OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   39 

    A P P E N D                      I X ~ F 





OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   40 

    A P P E N D                      I X ~ F 





OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   41 

  Δ         A C K N O W L E D G M E N T S                                                                                       




                                       This report was prepared under the direction of William C. Moran,
                                       Regional Inspector General for Evaluation and Inspections in the
                                       Chicago regional office, and Ann Maxwell, Assistant Regional Inspector
                                       General. Other principal Office of Evaluation and Inspections staff who
                                       contributed include:

                                       Emily Melnick, Project Leader
                                       Erin Lemire, Lead Analyst

                                       Laura Torres, Program Analyst

                                       Beth Middendorf, Presidential Management Fellow

                                       Margarita Rodriguez, Program Assistant

                                       Jocelyn Moore, Intern

                                       Suzanne Bailey, Intern

                                       Lindsey Hoy, Intern

                                       April Rush, Intern

                                       Tricia Davis, Director, Medicare and Medicaid Branch

                                       Linda Boone Abbott, Program Specialist

                                       Technical Assistance:

                                       Barbara Tedesco, Mathematical Statistician

                                       Kevin Farber, Mathematical Statistician
                                       Scott Horning, Program Analyst




OEI-05-04-00200   T E M P O R A RY M E D I C A R E - A P P R O V E D D R U G C A R D : B E N E F I C I A R I E S ’ AWA R E N E S S   AND   USE   OF   I N F O R M AT I O N R E S O U R C E S   42
